<html>
<title> - AN OVERVIEW OF FUSION ENERGY SCIENCE</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]











                  AN OVERVIEW OF FUSION ENERGY SCIENCE

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON ENERGY

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             April 20, 2016

                               __________

                           Serial No. 114-74

                               __________

 Printed for the use of the Committee on Science, Space, and Technology




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]








       Available via the World Wide Web: http://science.house.gov







                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

20-871 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001



















              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
F. JAMES SENSENBRENNER, JR.,         ZOE LOFGREN, California
    Wisconsin                        DANIEL LIPINSKI, Illinois
DANA ROHRABACHER, California         DONNA F. EDWARDS, Maryland
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
MO BROOKS, Alabama                   ALAN GRAYSON, Florida
RANDY HULTGREN, Illinois             AMI BERA, California
BILL POSEY, Florida                  ELIZABETH H. ESTY, Connecticut
THOMAS MASSIE, Kentucky              MARC A. VEASEY, Texas
JIM BRIDENSTINE, Oklahoma            KATHERINE M. CLARK, Massachusetts
RANDY K. WEBER, Texas                DON S. BEYER, JR., Virginia
JOHN R. MOOLENAAR, Michigan          ED PERLMUTTER, Colorado
STEVE KNIGHT, California             PAUL TONKO, New York
BRIAN BABIN, Texas                   MARK TAKANO, California
BRUCE WESTERMAN, Arkansas            BILL FOSTER, Illinois
BARBARA COMSTOCK, Virginia
GARY PALMER, Alabama
BARRY LOUDERMILK, Georgia
RALPH LEE ABRAHAM, Louisiana
DARIN LaHOOD, Illinois
                                 ------                                

                         Subcommittee on Energy

                   HON. RANDY K. WEBER, Texas, Chair
DANA ROHRABACHER, California         ALAN GRAYSON, Florida
RANDY NEUGEBAUER, Texas              ERIC SWALWELL, California
MO BROOKS, Alabama                   MARC A. VEASEY, Texas
RANDY HULTGREN, Illinois             DANIEL LIPINSKI, Illinois
THOMAS MASSIE, Kentucky              KATHERINE M. CLARK, Massachusetts
STEPHAN KNIGHT, California           ED PERLMUTTER, Colorado
BARBARA COMSTOCK, Virginia           EDDIE BERNICE JOHNSON, Texas
BARRY LOUDERMILK, Georgia
LAMAR S. SMITH, Texas





























                            C O N T E N T S

                             April 20, 2016

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Randy K. Weber, Chairman, 
  Subcommittee on Energy, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     5
    Written Statement............................................     7

Statement by Representative Alan Grayson, Ranking Member, 
  Subcommittee on Energy, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     9
    Written Statement............................................    10

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................    11
    Written Statement............................................    12

                               Witnesses:

Dr. Bernard Bigot, Director General, ITER Organization
    Oral Statement...............................................    14
    Written Statement............................................    17

Dr. Stewart Prager, Director, Princeton Plasma Physics Laboratory
    Oral Statement...............................................    28
    Written Statement............................................    30

Dr. Scott Hsu, Scientist, Physics Division, Los Alamos National 
  Laboratory
    Oral Statement...............................................    38
    Written Statement............................................    40
Discussion.......................................................    38

             Appendix I: Additional Material for the Record

Letter submitted by Representative Katherine M. Clark, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................    78

Documents submitted by Dr. Bernard Bigot, Director General, ITER 
  Organization...................................................    80

Statement submitted by Representative Eddie Bernice Johnson, 
  Ranking Minority Member, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    83

 
                  AN OVERVIEW OF FUSION ENERGY SCIENCE

                              ----------                              


                       WEDNESDAY, APRIL 20, 2016

                  House of Representatives,
                    Subcommittee on Energy,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 10:09 a.m., in 
Room 2318, Rayburn House Office Building, Hon. Randy Weber 
[Chairman of the Subcommittee] presiding.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Chairman Weber. The Subcommittee on Energy will come to 
order.
    And without objection, the Chair is authorized to declare 
recesses of the Subcommittee at any time.
    And we want to welcome you to today's hearing entitled ``An 
Overview of Fusion Energy Science.'' I recognize myself for 
five minutes.
    Today, we will hear from a panel of experts on the status 
of fusion energy science and learn about what can be done to 
advance this research and technology looking forward. We have 
two DOE national labs represented here today, as well as the 
ITER Organization. These experts represent the world's efforts 
to advance fusion energy science.
    The Science Committee has bipartisan interest in fusion 
energy research and development, and we look forward to hearing 
from our witnesses today about the future of this very, very 
exciting research.
    Fusion energy science is groundbreaking because researchers 
are working towards a goal that seems actually beyond reach: to 
create a star on Earth, to contain it, and control it to the 
point that we can convert the immense heat into electricity. 
Fusion clearly is high-risk yet high-reward research and 
development.
    One of the Energy Subcommittee's key responsibilities is to 
maintain oversight of the research activities within the Office 
of Science. As the authorizing committee, we must also consider 
the prospects of future research investments.
    The DOE's current budget request for fiscal year 2017 is 
approximately $398 million, a proposed cut from fiscal year 
2016-enacted levels at $438 million.
    Funding for fusion energy science has been on a downward 
trend over the past few years. This sends a signal of 
uncertainty to the fusion research community of America's 
commitment to lead in this science. Congress must decide how to 
effectively invest taxpayer dollars in basic research that 
provides the scientific foundation for technologies that today 
might seem impossible.
    Today, we will hear testimony from Dr. Stewart Prager, 
Director of the Princeton Plasma Physics Laboratory, which is 
the nation's preeminent lab in fusion science. Under his 
leadership, Princeton's recent upgrade to its spherical 
tokamak--I keep wanting to say tomahawk, and I know that's not 
right--tokamak fusion reactor was completed on time and on 
budget. Dr. Prager, can you teach Congress how to do that with 
other programs?
    I look forward to discussing with Dr. Prager what 
opportunities exist for the United States to play a larger role 
in fusion energy research and development.
    I also look forward to hearing from Dr. Scott Hsu--am I 
pronouncing that right, Dr. Hsu--of Los Alamos National 
Laboratory. Dr. Hsu's work is a great example of how our 
experts responsible for maintaining the nation's nuclear 
weapons stockpile can apply their knowledge for an alternate 
use.
    Of course, we're all interested to get a status update on--
is it ITER or ITER? ITER, okay. With the complexity of a 
multinational collaboration like ITER, this project has faced 
more challenges than most. The Department of Energy will 
release its own assessment of this project in early May.
    Fortunately, today, we have the opportunity to hear from 
the Director General of the ITER project directly, Dr. 
Bernard--is it Bigot?
    Dr. Bigot. Certainly.
    Chairman Weber. Okay. Dr. Bigot's track record as the ITER 
Director General thus far has been stellar and inspiring. Dr. 
Bigot, we look forward to your testimony today.
    It is important that this committee continues to scrutinize 
the progress of ITER to ensure that it remains a good 
investment of taxpayer dollars. We must also consider the 
importance of access to the ITER reactor for American 
researchers and America's standing and credibility as a global 
scientific collaborator. If the United States is going to lead 
the world in cutting-edge science, we cannot take our 
commitments to our international partners lightly, and we must 
not undermine progress on these complex projects.
    I want to thank our accomplished panel of witnesses for 
testifying on fusion energy research and development today, and 
I look forward to a productive discussion about this exciting 
area of basic science.
    [The prepared statement of Chairman Weber follows:]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
     
    Chairman Weber. I'll now yield to the Ranking Member.
    Mr. Grayson. Thank you, Mr. Chairman.
    I welcome this distinguished panel of witnesses here today 
to discuss a topic that is of critical importance to the future 
of our nation and in fact the entire world.
    Fusion energy has the potential to provide a practically 
unlimited supply of safe, reliable, clean energy to us all. 
While we've yet to achieve a viable fusion reactor, I believe 
there's many paths that we have to do so. I also don't believe 
that we're doing nearly enough to ensure that we're pursuing 
the most promising approaches to achieve this goal quickly and 
effectively as possible.
    Fusion energy can be an enormous global boon to every 
living human being, and it's going to happen. Whether it 
happens five years from now or 50 years from now depends on the 
decisions that we make and the work that you do.
    That's why, while I appreciate the participation of both 
the ITER Director General and the Director of the DOE's only 
national laboratory dedicated to advancing fusion energy, I'm 
also particularly pleased that we have Dr. Hsu here on the 
panel this morning. He's the recipient of the largest award in 
the recently established ARPA-E program that's examining the 
potential for alternative innovative fusion energy concepts, 
this one called magnetized target fusion, which may achieve net 
energy production far sooner and with much lower capital costs 
than conventional existing approaches. I also look forward to 
hearing Dr. Hsu's thoughts on how the Department of Energy can 
better support and assess the viability more generally of a 
breakthrough approaches like this.
    And I look forward to learning more about the progress that 
ITER has made under Dr. Bigot's leadership to address 
previously identified management deficiencies and to establish 
a more reliable path forward for the project.
    And finally, I look forward to Dr. Prager's views on how we 
can and should regain or maintain U.S. leadership in fusion 
energy development moving forward.
    I think that this panel today goes right to the heart of 
why we do the work we do in research in America through the 
U.S. Government and otherwise. It's going to happen. Sooner or 
later mankind will definitely, without any doubt, establish a 
means to generate fusion energy and meet our energy needs this 
way. The question is it's going to happen during our lifetimes 
and our generation or the next generation or the one after 
that. I prefer to see it happen in my generation, and I'll know 
that when that does happen, I will feel very proud that we sat 
here today, learned how to make that happen, and then did what 
we needed to do to go ahead and to deliver this breakthrough 
energy source to all mankind.
    I yield back.
    [The prepared statement of Mr. Grayson follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
     
    Chairman Weber. Thank you, Mr. Grayson.
    I now recognize Chairman Smith, the Chairman of the full 
committee. Mr. Smith?
    Chairman Smith. Thank you, Mr. Chairman.
    And I appreciate both your opening statement and the 
Ranking Member's longstanding interest in fusion energy. And I 
tend to think he's correct; I hope it happens sooner rather 
than later.
    Today, we will hear about the status of fusion energy 
research and development and the prospects of future scientific 
discovery in fusion energy. The basic idea of fusion energy is 
to create the equivalent of the power source of a star here on 
Earth. The same nuclear reactions that occur in a star would be 
recreated and controlled within a fusion reactor. The heat from 
these reactions would ultimately be converted into renewable 
and reliable electricity.
    It has captured the imagination of scientists and engineers 
for over half-a-century. At the Princeton Plasma Physics 
Laboratory, the National Spherical Torus Experiment enables 
scientists from across the country to carry out experiments in 
cutting-edge fusion research. Someday, the results of this 
research may provide the scientific foundation for producing 
power through fusion.
    Other DOE labs also support fusion research. At Los Alamos 
National Laboratory, our nuclear weapons researchers apply 
their expertise to the development of innovation--innovative 
fusion concepts.
    The ultimate goal in fusion energy science is to provide a 
sustainable, renewable, zero-emissions energy source. We cannot 
say when fusion will be a viable part of our energy portfolio, 
but we should support this critical science that could benefit 
future generations.
    One major step toward achieving this goal is ITER. The ITER 
project is a multinational collaborative effort to build the 
world's largest tokamak-type fusion reactor. The federal 
government should invest in long-term challenging science 
projects such as this, which will ensure America remains a 
world leader in innovation.
    Today, we will hear from the Director General of ITER, who 
will provide an update on the project's advances and 
challenges.
    Basic research, such as fusion energy science, provides the 
underpinnings for groundbreaking technology. This type of 
energy R&D is still in its early stages and requires commitment 
and leadership. Unfortunately, the President has not provided 
the leadership that is necessary and has repeatedly cut funding 
for fusion science. Despite the President's promises to support 
clean energy R&D, his lack of support for fusion energy is more 
than disappointing.
    Fusion energy is the type of technology that could someday 
change the way we think about energy. To maintain our 
competitive advantage, we must continue to support the basic 
research that will lead to next-generation energy technologies.
    Thank you, Mr. Chairman.
    [The prepared statement of Chairman Smith follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
     Chairman Smith. Before I yield back, I want to explain to 
my colleagues and our expert panelists today that I have a 
Judiciary Committee markup, so I'm going to have to excuse 
myself but hope to be back. Thank you.
    Chairman Weber. Thank you, Chairman Smith.
    Our witnesses today--our first witness is Dr. Bernard 
Bigot, Director General of the ITER Organization. Dr. Bigot 
received his bachelor's degree in mathematics from Claremont 
McKenna College and his MBA from Harvard Business School.
    Our next witness today is Dr. Stewart Prager, Director of 
the Princeton Plasma Physics Laboratory. Dr. Prager received 
his Ph.D. in plasma physics from Columbia University.
    And our final witness today is Dr. Scott Hsu, scientist in 
the Physics Division of the Los Alamos National Laboratory. Dr. 
Hsu received his Ph.D. in astrophysical sciences from 
Princeton.
    I'm now going to recognize Dr. Bigot, Mr. Grayson, for five 
minutes to present his testimony, and he's going to tell us 
when they're going to get the fusion problem fixed.
    Dr. Bigot, you're recognized for five minutes.

                TESTIMONY OF DR. BERNARD BIGOT,

              DIRECTOR GENERAL, ITER ORGANIZATION

    Dr. Bigot. Thank you very much. Thank you, Chairman Weber, 
Ranking Member Grayson, and distinguished--sorry. I would like 
also to recognize the full committee Chairman Smith, which was 
there a few minutes ago.
    I'm grateful and deeply honored for this opportunity to 
present to you the status of progress on the ITER project. May 
I have the first slide?
    [Slide.]
    So you see on this slide the worksite, okay, we have 
something old, which is the steel frame just in front of you, 
and just behind is a tokamak pit. It was recorded in last 
September, and I hope you will be able to view the video we 
have prepared for you. It will show the real progress and the 
very short time.
    Next slide, please.
    [Slide.]
    As you know, the project started in 2007, and after nearly 
ten years--it will be ten years, okay, on next January--it was 
obvious for many that we have some organizational shortcoming. 
And is why in a management assessment report, which has been 
provided by Bill Madia, Dr. Bill Madia in 2013, they point out 
some specific issue which have to be fixed.
    This is why in early August 2014 I was questioned if I 
could consider to take some responsibility in order to help 
this project, and after nearly 12 years as a head of Atomic 
Energy Commission and Alternative Energies Commission in 
France, I consider such possibility. But I said I want to do it 
only after we have an agreement of an action plan to be sure 
that all the ITER members support the recovery plan we needed. 
And is why we tried to fix, okay, the organization.
    We decide on--about effective decision process. We set up 
Executive Project Board. We gathered together project team in 
such a way we have an integrated, okay, way to proceed with 
domestic agencies, seven domestic agencies, which have to 
provide nearly 90 percent of the value of the project. And I am 
very pleased to say that we have made very important progress 
in this field.
    The second important point was to freeze the design. When 
you are to build the machine now, you need to have really a 
full, okay, finalization of the design. And as you see on the 
vacuum vessel sector, nine of them are like this. There is 
many, many piece to assemble. So if you have no finalization of 
the design, it will delay the delivery. Now on the most 
important for me is ITER Organization as a design responsible 
and as the owner of the project must not be a limiting step on 
any progress for the project.
    Also, we develop a large, okay, project culture, nuclear 
recognition of--it is a statement we have to do, and I am 
pleased to see that the whole staff now is moving on in this 
direction. But may be the most important for me is to have a 
schedule. And when I come in, I discover that, okay, many 
people don't feel that the schedule wasn't right. And it's why 
we tried to fix it. I am pleased to say that we have made it 
okay as of last November. The ITER council agrees on the first 
years and we set up some milestones.
    Next slide, please.
    [Slide.]
    And so you see some of the milestones, and I don't want to 
depict it in detail, but really it's impressive how large the 
progress has been made once we free the energy of the suppliers 
and have a clear plan.
    Next slide, please.
    [Slide.]
    Some other milestones, as you see.
    Next.
    [Slide.]
    Okay. The most important was for the ITER members to have 
an assessment of our proposal as a schedule, and is why, we 
have an independent review panel. And I'm very pleased to say 
that on time the panel has delivered its report. On last 
Friday, April 15, we've, as you see, quite a positive 
assessment on the way we are proceeding.
    Next slide.
    [Slide.]
    Okay. And now we expect that on the basis of this report 
that we will be able to have a final decision, okay, on 27th of 
April I expect that the ITER council extraordinary meeting will 
be able to examine the finding of those independent report and 
give full guidance on the next steps. And on the next two ITER 
Council, we will have approval of the baseline in such a way we 
can move on to First Plasma first and after to DT, deuterium-
tritium commissioning.
    Next slide.
    [Slide.]
    Now, okay, why is the U.S. and the many ITER members has to 
stay in in this larger project is because I do believe it's 
worth for them to share their capacity. We've limited 
investment, nine percent, while it would be a 100 percent 
return due to the full sharing of intellectual property and 
operational know-how.
    Next slide.
    [Slide.]
    As you know, the United States is largely contributing. 
with many national labs been involved in. And you imagine that 
if the U.S. alone or any other ITER members has to contribute 
all together, it will take much more time.
    Next steps, okay.
    [Slide.]
    Not only we are developing technology for fusion but for 
many other cutting-edge technologies and superconducting 
materials under final distribution and all these things.
    Next.
    [Slide.]
    you see here a map which show that many States in the U.S. 
is involved in the industrialization of this project. Nearly 
$800 million has been already awarded to the industry. Eighty 
percent are spent fully in the United States of taxpayer money 
from the United States and even more, all the partners are 
requesting the U.S. industry to deliver.
    Next.
    [Slide.]
    Here is a full list of all the potential suppliers in the, 
okay, last time.
    Next. Next. Okay.
    [Slide.]
    And we do believe it's important that it is agreed to 
global sense of urgency about the importance of fusion as you 
depict because whatever we do, we need to provide more energy 
due to the increase in population and also the increase in the 
level of livestyle now.
    Next.
    [Slide.]
    Addressing also some environmental concerns, and you see we 
depict some possibility. And there is not a silver bullet. We 
have to make some innovation in order to be able to, okay, 
fulfill the expectation of energy supply. And there's big 
players are not only the United States but also some others, 
and we have not able to move on. It will be difficult. And I'm 
very pleased to tell you that last weeks I was in China, and 
China is now pushing very hard in order to be able to deliver.
    Last slide, I do believe.
    [Slide.]
    Fusion is really making the case, as you mentioned, clean, 
safe, abundant, and economic energy potential.
    And last slide.
    [Slide.]
    Just to show you that we are now moving on, okay, with this 
picture. And if you agree, we could have this video just 
showing you, okay, how it is now in the last few days on the 
working site.
    Thank you for your attention, and I'm ready to listen to 
any of your question.
    [The prepared statement of Dr. Bigot follows:]
    
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
    
        Chairman Weber. Thank you, Dr. Bigot.
    And at this time I recognize Dr. Prager for five minutes to 
present his testimony.

           TESTIMONY OF DR. STEWART PRAGER, DIRECTOR,

              PRINCETON PLASMA PHYSICS LABORATORY

    Dr. Prager. Well, thank you very much for your opening 
comments--I appreciate them greatly--and also for the 
opportunity to speak to you today.
    I direct the Princeton Plasma Physics Laboratory, PPPL, 
which is a national laboratory, a DOE national laboratory 
managed by Princeton University. I've been asked to describe 
PPPL, its activities and opportunities; and ITER, its 
importance in relation to the U.S. research program.
    PPPL employs a staff of 500. It has the dual mission to 
develop fusion energy and to advance fundamental plasma science 
with its many applications. The core of a fusion reactor is a 
very hot plasma, a gas of electrically charged particles such 
as a flame or a star. Research at PPPL concentrates on ideas 
that are innovative, unique, and at the world forefront, key 
criteria for all U.S. fusion research.
    Fusion energy research in Asia and Europe is escalating. 
For the U.S. to contribute competitively in the face of larger 
investments elsewhere, we must focus on activities with 
breakthrough potential. Research at PPPL aims for innovation in 
four major areas: the development of a fusion concept that 
might lead to a fusion pilot plant as a next step for U.S. 
fusion, the challenge of how one surrounds a 100-million-degree 
plasma by a resilient material, the use of large-scale 
computing for new insights into fusion systems, and physics 
research that is key to the success of ITER.
    We're currently at a propitious moment at PPPL. We have 
recently upgraded our major facility and just begun operation 
of this new experiment, the National Spherical Torus 
Experiment-Upgrade, NSTX-U. It is a DOE-user facility with 350 
researchers from 60 institutions. The experiment cuts across 
all of the four topics just mentioned. It is a design that 
could lead to a reduced-size fusion pilot plant, a facility 
that would demonstrate net electricity production from fusion. 
NSTX will tell us whether this exciting step is possible. To do 
so it will push the frontier of our understanding of fusion 
plasmas.
    We are also developing a novel solution to the challenge of 
the material that faces the hot plasma. Most of the world is 
investigating solid metals. A complementary approach is to 
surround the plasma by a liquid metal. Liquids are not damaged 
by the hot plasma. This offers a breakthrough solution to a 
major challenge. Will it work? We aim to find out through 
research that combines plasma physics with material science.
    Fusion today is being transformed by supercomputing. We can 
now solve the equations that describe fusion plasmas as never 
before. PPPL has developed complex computer codes that are 
generating innovations in fusion systems. All these activities 
yield key understanding to help guide the future of ITER.
    Looking to the future, opportunities abound for new world-
leading major initiatives in the United States and the PPPL. 
PPPL is an underutilized resource for the Nation. The physical 
infrastructure includes capabilities that are unexploited, but 
more importantly, the staff of PPPL and U.S. fusion labs in 
general has broad world-class expertise and ideas that are not 
being tapped fully. We can do much more.
    I will mention three exciting paths for PPPL and the United 
States. First, if experimental results prove favorable over the 
next decade, the United States could possibly move to 
preparations for a fusion pilot plant, a transformational step.
    Second, with the revolutionary advance in computing power, 
we are now optimizing the fusion system in ways that were 
nearly inconceivable 20 years ago. With significant reactor 
advantages, PPPL aspires to experimentally test such modern 
designs.
    Third, if current research and liquid materials proves 
favorable, we could move to a definitive integrated test of 
that concept.
    And PPPL aims, as the national lab for fusion, to 
coordinate the U.S. research team on ITER following a model we 
are developing for a U.S. team that's collaborating on a major 
facility in Germany.
    This brings me to the importance of ITER. ITER will be the 
first experiment to demonstrate and study a burning plasma, a 
fusion plasma that is self-sustaining, kept hot by the energy 
from fusion. A burning plasma is an essential gateway to 
commercial fusion. ITER is the path to this crucial goal.
    ITER will also test key technologies and generate 500 
million watts of thermal fusion power. ITER will be a landmark 
experiment in science and energy of the 21st century. It will 
be the focus of the world fusion program, complemented by 
strong domestic research in each participating nature--nation.
    It is imperative that the United States maintain active 
participation in ITER and a strong domestic research program. 
These two components are strongly intertwined. Without a strong 
domestic program, we will not be able to extract information 
from ITER, and a domestic program is needed to solve the 
remaining challenges that ITER is not designed to solve.
    The U.S. fusion program consists of broad research at 
universities and national laboratories and three major tokamak 
facilities. The three major facilities are General Atomics, 
MIT, and Princeton, form a triad of complementary capabilities 
that have made seminal contributions. The Oak Ridge, Livermore, 
Los Alamos, and other national labs also make key 
contributions.
    The university research community in the United States 
provides foundational and innovative contributions. Research at 
universities spans the full range of fusion challenges carried 
out through experiments on campus and through participation at 
user facilities. There's a very strong need to reinvigorate 
U.S. university research and in fusion energy, which has 
suffered losses in recent years.
    The opportunities for the United States to accelerate the 
pace to fusion energy are enormous. This would strongly benefit 
the United States as well as the world.
    Thank you very much for the opportunity to provide an 
opening statement.
    [The prepared statement of Dr. Prager follows:]
   
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
 
 
 
    Chairman Weber. Thank you, Dr. Prager.
    I now recognize Dr. Hsu for five minutes.

             TESTIMONY OF DR. SCOTT HSU, SCIENTIST,

                       PHYSICS DIVISION,

                 LOS ALAMOS NATIONAL LABORATORY

    Dr. Hsu. Chairman Weber, Ranking Member Grayson, Members of 
the Committee, thank you for your opening remarks, and also 
thank you very much for the opportunity to testify. I thank the 
Committee for its longstanding support of fusion energy and 
plasma physics research in this country.
    I have been asked to describe the status of DOE support for 
innovative fusion energy concept development and to provide 
recommendations. I am pleased that the committee is considering 
these topics.
    I also ask that my written testimony be entered into the 
record.
    Chairman Weber. Without objection.
    Dr. Hsu. My name is Scott Hsu. I was trained in plasma 
physics at the Princeton Plasma Physics Laboratory, and I am 
now a fusion research scientist at Los Alamos National 
Laboratory. As you know, Los Alamos had its storied beginnings 
in the Manhattan Project during World War II. Today, Los Alamos 
is focused on national security science, which includes our 
nation's energy security. In controlled fusion research, Los 
Alamos historically focused on many non-tokamak approaches, and 
thus, it is perhaps fitting that I appear before you today to 
discuss innovative fusion energy concept development.
    The first point is that there are many credible approaches 
to fusion energy other than our two leading approaches, which 
are the tokamak such as ITER and inertial confinement fusion 
such as the National Ignition Facility. You may refer to figure 
1 on my written testimony.
    Many in the fusion community refer to the other approaches 
collectively as alternative or innovative concepts. These are 
specifically what I am discussing here today.
    The main reason many of us are motivated to pursue 
innovative approaches is that they hold the potential for a 
smaller fusion reactor with less engineering complexity. Some 
of them could potentially cost much less to develop in a 
shorter time, perhaps in time to penetrate midcentury 
electricity generation markets. But these concepts are less 
mature, and more research is needed to tell us whether their 
performance can be improved to the point of enabling a power 
reactor.
    The second point is that lowering the cost of fusion energy 
development is itself a worthwhile goal. The reason is that the 
stages of development of our mainline fusion programs are very 
costly, too costly for private investors and companies to play 
a significant role.
    One potential way to lower the cost of fusion energy 
development is to strategically pursue a number of the most 
promising innovative fusion concepts that are inherently much 
lower cost than the tokamak. If federal support reduces early-
stage risk for promising lower-cost innovative fusion energy 
concepts, then more companies such as Tri Alpha Energy or 
General Fusion may step into pursue fusion energy development.
    The third point is that present DOE support of innovative 
fusion concept development is unhealthy with no new federal 
funding opportunities. As recently as 2010, DOE provided 
approximately $42 million per year to support innovative 
concept development. Today, the only such support is in the 
recently initiated ARPA-E ALPHA program, which is $30 million 
over three years, and is focused on a particular class of 
fusion approaches called magneto-inertial fusion due to its 
inherently low cost. This was also referred to as magnetized 
target fusion. You may refer to figure 2 of my written 
testimony.
    So let me close with three primary recommendations. First, 
Congress and DOE should reassess innovative fusion energy 
concept development, which should be pursued in addition to our 
present fusion energy program elements, which Dr. Prager 
described very eloquently. DOE should consider implementing a 
new energy-oriented innovative concepts program with 
appropriate metrics to encourage lower cost and timely 
development of economically competitive fusion power. Progress 
is possible for a modest fraction of the overall fusion budget.
    Secondly, any new program should enable and promote 
advances with regard to both the plasma physics challenges and 
the criteria for a practical fusion power reactor.
    Finally, a federal funding bridge should exist for the 
entire innovative concepts development path from early-stage 
research to a logical handoff to private development. And this 
is depicted in figure 3 of my written testimony.
    Thank you again for the opportunity to testify. I'm happy 
to take questions.
    [The prepared statement of Dr. Hsu follows:]
  
  
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
  
     
    Chairman Weber. Thank you, Dr. Hsu. And, Dr. Bigot, when 
you earlier had your comments about the video, I thought you 
were offering that--to send that to our office, but we've got 
time to watch that video now if that's what you'd like to do.
    Let's play that video.
    Dr. Bigot. Okay. Thank you.
    Chairman Weber. You bet you.
    [Video shown.]
    Chairman Weber. Thank you, Dr. Bigot. I now recognize 
myself for five minutes.
    Dr. Prager, I think you said that the fusion power may 
become actually a--you may have a pilot plant in ten years in 
your testimony? Elaborate on that.
    Dr. Prager. So one grand goal of fusion on a step along the 
way is to build an energy-producing plant.
    Chairman Weber. Right.
    Dr. Prager. ITER will produce energy but it won't make--
it's not intended to make net electricity. So there is a goal 
to do that, to demonstrate that you can make net electricity, 
produce more electricity than you can consume.
    So in experiments at Princeton the design that we're 
studying at NSTX-U, if successful, can offer the possibility of 
doing that at a somewhat smaller size, not radically smaller 
but somewhat smaller scale than the conventional tokamak 
approach.
    Chairman Weber. Would that be on site where you are now?
    Dr. Prager. No. A--such a facility would involve tritium 
handling, which would not best be done in Princeton, New 
Jersey.
    Chairman Weber. Okay. Well----
    Dr. Prager. In ten years we could begin the design and 
construction of such a facility, and there are--this is--there 
are other ideas, for example, to use advances in magnets, 
current magnet technology also to seek reduced size pilot 
plants. So this is one aspiration for the future.
    Chairman Weber. Well, that--I mean, you're putting it--to 
the gentleman from Florida's question about we don't do this in 
our lifetime, you're putting a ten-year time frame on it, 
which, whether or not it's realistic--but that is a goal for us 
to shoot at and I'm encouraged to hear that.
    Dr. Prager. Yes. But just let me clarify, that's not ten 
years to a commercial reactor.
    Chairman Weber. No, I get it.
    Dr. Prager. So let me clear----
    Chairman Weber. No, I get that.
    Dr. Prager. Okay. If it's ten years where we would begin 
the----
    Chairman Weber. Right.
    Dr. Prager. --design and construction of a pilot plant----
    Chairman Weber. I'm just hoping my friend from Florida will 
still be with us----
    Dr. Prager. Yes.
    Chairman Weber. --in ten years.
    Dr. Prager. I hope so, too.
    Chairman Weber. Yes. You bet. So that--I was glad to hear 
that.
    And, Dr. Prager, would you support Department of Energy's 
development of high-performance computational tools that would 
be accessible to the researchers in the private sector, 
academia, and at the national labs to be useful to the fusion 
community? Do you think that would help shorten that time frame 
to where we could develop that commercial energy power plant?
    Dr. Prager. Absolutely, yes. You know, there's been 
revolutionary advances in supercomputers that's revolutionizing 
all of modern science, fusion no less than any other. So with 
the supercomputing capabilities we can design concepts and test 
them on the computer and advance them in ways that we couldn't 
possibly do before. And there are new ideas on the table 
because of that.
    It's also, I might say, critical for us in terms of 
interpreting ITER results. We need these advanced computation 
to understand as best as we can how ITER will behaved. So this 
is revolutionary for fusion.
    Chairman Weber. Dr. Hsu, does that help you?
    Dr. Hsu. Absolutely, yes. I should also add that for 
smaller projects such as Innovative Concepts, the resources 
generally are tough to come by to make use of our computational 
capabilities. So any assistance on that front would be 
tremendously useful for innovative concept development. Also in 
the inertial fusion side, access to some of the codes can be 
difficult for people not at the national labs, so----
    Chairman Weber. Okay.
    Dr. Hsu. --making codes more generally available would help 
fusion energy development.
    Chairman Weber. You're working on magnetized target fusion?
    Dr. Hsu. Yes, that's correct.
    Chairman Weber. That's part of this and that would help you 
in that endeavor?
    Dr. Hsu. Yes.
    Chairman Weber. Okay. Very good.
    And, Dr. Bigot, I'm going to come back to you. Thank you, 
by the way, for your success--early success as Director General 
in setting a time frame and a guideline. We really appreciate 
your efforts in that manner.
    The fact that you've had success should instill confidence, 
but how can we help you--what needs to be done to increase the 
confidence in ITER that ITER will be on--will continue on that 
steady pace to realize its goals? What are your plans to make 
sure that you continue that pace?
    Dr. Bigot. It's clear that it's a long-term commitment for 
all the seven ITER members, and I do believe that the best 
would be for the ITER members to have referral and open 
discussion in such a way that any proposal we could make could 
be fully examined and supported. And it's why it is so 
important that the seven members feel fully committed to 
support what we call the "best technically achievable schedule" 
in such a way that we have all the milestones--we have now 
clearly a position on this road. We have the full support.
    I really appreciate that you would give us the opportunity 
to make more largely--warn us, share among all the ITER members 
about the importance of continuous support.
    Chairman Weber. Well, thank you for saying that. And we 
want you to view this committee as a resource because we want 
to be a source of encouragement and resource for you so that 
anything we can do to keep this project moving forward, we want 
to be able to be helped in.
    I'm over my time. So thank you again for being here and 
your testimony.
    And the Chair is going to recognize Alan Grayson.
    Mr. Grayson. Thank you.
    Dr. Bigot, it's been ten years already since the major 
governments of the world signed off on the ITER project. We now 
have 11 years to go before we start to do the major experiments 
involved, and there isn't even a plan to actually generate net 
electricity from ITER. That's not its design or its purpose.
    Dr. Prager, you're talking about an alternative smaller-
scale approach where we would begin construction ten years from 
now. Let's say hypothetically that mankind wakes up tomorrow 
morning and decides that we don't want to wait 10 or 11 years 
until we do the experiments or the construction, but we want a 
much quicker result that can lead to electricity generation net 
from fusion projects in a shorter time frame. What should we 
do? Dr. Hsu?
    Dr. Hsu. I think we need to pursue many avenues at this 
point because we don't know the answer right now. ITER is the 
most mature--ITER is the most mature method, and I believe that 
is why we're pursuing and need to pursue it, but we should 
consider all our known options at this point.
    Mr. Grayson. Well, consider, what do you mean by that? 
Pursue, you used that word also. What do you mean by that? What 
should we do?
    Dr. Hsu. We should look at our other options alongside our 
maybe--you know, our most mature option.
    Mr. Grayson. Do you want to enumerate some?
    Dr. Prager. Well, so some of the examples I discuss in my 
written testimony and on the figure 1 of my written testimony, 
DOE has supported the development of those concepts in the 
past. There is room to continue advancing some of those 
concepts, and some of those concepts, as I mentioned earlier, 
are attractive because they have less engineering complexity. 
But they--but I caution, they are at a less-mature state right 
now, so it's harder to provide a reliable path forward. We need 
to do the research to decide whether the performance is 
acceptable.
    Mr. Grayson. Dr. Prager, if we don't want to wait 10 or 11 
years simply to conduct more experiments or new construction 
but we actually want to see some positive result that benefits 
mankind in a shorter time frame, what should we do?
    Dr. Prager. Well, we're resource-limited right now. I think 
if the United States wanted to commit more aggressively to 
fusion, there's lots that we can do. We can lay plans now for 
in the United States to build an energy-producing facility. 
Whether it's a pilot plant or something of reduced ambition, 
the scientific immunity would have to debate, but we can move 
forward on that. We could move forward on ideas that offer 
perhaps more attractive route or solve some of the problems 
that are confronting us.
    I mentioned the computer is able to design machines we 
couldn't design before. There are designed on the table that 
the United States should be building that would have very 
attractive features. I think there is no one idea that's a 
magic bullet that will deliver commercial fusion power in 10 
years.
    Mr. Grayson. Okay.
    Dr. Prager. I don't think that's going to happen. But we 
can greatly accelerate the pace, and no question, fusion can be 
developed in a timescale to have a huge impact on how we 
produce energy in the mid-part of this century.
    Mr. Grayson. All right.
    Dr. Prager. I do agree with Dr. Hsu's testimony. I think 
that we should be supporting ideas in fusion that span from the 
mainstream and there's a continuous spectrum all out to ideas 
that are very, very primitive at this time. But I agree with 
Dr. Hsu that we should have metrics and a systematic way to 
judge their progress and what should move forward and what 
shouldn't be.
    Mr. Grayson. You say there are designs on the table that 
the United States should be building. What are they?
    Dr. Prager. So here you'll get different answers. Let me 
just preface it. You'll get different answers from different 
fusion scientists because there's a plethora of ideas and 
everybody has their favorite. So with that preface I'll tell 
you one of my favorites, okay? There are designs now that use 
magnets that look highly, highly asymmetric. If you look at 
how--the magnet structure, it's not nice, circular magnets. 
It's because we can design--we can optimize the shape of the 
magnetic bottle so that--to make the best physics performance 
we can possibly get.
    So there are designs that go into the brand name of 
stellarators. They're studied in Germany and Japan, but there 
are unique U.S. designs that automatically run continuously for 
months on end and are extremely stable and well controlled. And 
that's one example, I think, of a modern design that we should 
be building. And there are others.
    Mr. Grayson. Dr. Bigot?
    Dr. Bigot. You know, I want to be very clear. We have not 
to oversell, okay, the schedule. For example, I just want to 
let you know that for many factorings a big vacuum vessel 
sectors. There are nine that I mentioned there. We know we 
could not do it before three years and eight months, okay? It 
takes time if we want to be able to really deliver.
    The ITER project now want to demonstrate clearly that we 
will have, okay, massive production, a sustainable production, 
and it is leading-edge, okay, technologies and it takes time, 
okay. It's a nuclear facility. We need to absolutely work on 
quality and safety, and for me, I'm very supportive of the 
alternative, okay, development, which could be brought in 
because I do believe it will be worth once we have as ITER 
demonstration to integrate some of these things. But as long as 
we have not seen the real breakthrough with, okay, the yield of 
factor of ten and when compared with the energy it is consuming 
in order to heat the plasma it will be difficult to 
accommodate.
    Again, we have to think about, for example, for developing 
the superconducting coils now, it takes nearly, okay, 30 years, 
okay, on all the best expert worldwide in national labs in 
order to secure an industry production, okay. So from my point 
of view we are not to raise too much expectation.
    The most important for me is to keep now on schedule. We 
have a clear schedule, okay. It will take, as you say, okay, 
ten, eleven years to have the first plasma done, and I do 
believe it will be the best demonstration of the availability 
of this technology to be able to afford according to the best 
schedule we have.
    Mr. Grayson. I yield back.
    Chairman Weber. I thank the gentleman and now recognize Mr. 
Knight from California for five minutes.
    Mr. Knight. Thank you, Mr. Chair.
    So I'm just going to go down the kind of time frame here 
and who's involved. We have seven members involved, and we have 
about a 30-year process of where we started on this and now 
we're talking about another--maybe a ten-year process before we 
get to a--kind of a working model for lack of a better term 
here.
    In every situation when we talk about a long-term project, 
we're always talking about cost, we're always talking about 
who's involved and maybe if we need to get more money, then we 
have to look at those members, or has anyone talked about 
bringing in other countries, other members into this agreement? 
Yes, sir.
    Dr. Bigot. Yes. Clearly, I'm pleased to see that in the 
world many countries are looking to fusion, as you do yourself, 
and I'm very pleased to see some new companies starting in 
order to demonstrate if there is some innovation. And I'm clear 
to you that some country now are questioning us as to whether 
we could accept if they could join us as a new ITER member. So 
very soon I will discuss with some of these countries in order 
to see if they could fulfill the regulation and the rules to 
join the ITER.
    Mr. Knight. Okay.
    Dr. Bigot. And I will let you know as soon as, okay, we 
will be there. It could help us because, as you know, there is 
over-cost and so if these people bring in and are decided to be 
really a member, it will reduce the difficulty to find, okay, 
the financial request we are now facing.
    Mr. Knight. Okay. Very good. And I'm to understand that the 
ITER project is the closest project in this form of technology 
anywhere in the world, is that correct?
    Dr. Bigot. According to me, yes. We have been working for 
so long and all----
    Mr. Knight. You're my expert.
    Dr. Bigot. Okay. And we are--yes. And we are now benefiting 
of all the experience. You know, when the project start, it was 
quite difficult challenge to fix everything, but now after the 
ten years, I do believe if we have a proper management, we will 
be able to deliver on time.
    Mr. Knight. Okay. And my last question is a question I 
always put to my son is that do you think we're smart enough to 
do some of the things today? And the answer is always we may or 
may not be smart enough to do some of these things. The fact of 
the matter is for the supercomputing that is happening today, 
we are way smarter today than we might have been ten years ago 
with the advancements in computers, with the advancements that 
we have done over the last ten years to get us to where we are.
    So in ten years from now, hopefully, we have this model, 
hopefully, we are on schedule and we are hitting all the points 
that we're supposed to for this project. But over those ten 
years, computers are going to be infinitely better at what they 
do, compared to today. We are going to know an awful lot more 
in ten years than we know today.
    So with all of that being said, I hear from all three of 
the panelists that it is very hopeful and possible that we will 
be there in ten years to have this project up and running. And 
I am getting that from all three of my panelists, is that 
correct?
    Dr. Bigot. Yes. According to me, you are correct. It was 
really very well point out and underlined that computing 
facility is very, very important asset for the developing of 
these technologies.
    As you know now, within the ITER we have what we call a 
broader approach. With Japan, for example, we have a computer 
specially dedicated to the modeling of the plasma and all of 
the, okay, operation and factors.
    But I would say that now the ITER project is a really 
challenging engineering, okay, goal and is why it's bringing us 
so much to have this computing capability. And if you come 
onsite, you will see we have what we call a virtual room where 
all the engineers day after day are able to see how this piece 
will be fully assembled, how we can maintain them, how we could 
take advantage of the optimization of the process. So computing 
for me is really something which could help a lot in the 
future.
    Mr. Knight. Thank you very much, Mr. Chair. And I think we 
were just invited to southern France.
    Chairman Weber. All right. Well, when this hearing is 
concluded, we'll all get--go to the airport.
    I appreciate the gentleman yielding back, and the 
gentlelady from Massachusetts is recognized.
    Ms. Clark. Thank you, Mr. Chair, and thank you to the 
panelists for being here. And I understand that burning plasma 
science is just one of the areas that we have to address if we 
really want to deliver on fusion's promise of clean--as a clean 
energy source in a meaningful timescale as we look at climate 
change and the effects that it is having.
    What--this is really a follow-up on Representative 
Grayson's question, but what does the United States have to do 
to establish leadership and accelerate the progress in plasma 
phasing materials research or in simulation and modeling of 
plasmas? For anyone.
    Dr. Bigot. I could start. For me from my point of view as 
ITER, as everybody knows in the world, the United States has 
the most advanced, okay, in science and technology industry. So 
the best we could expect is to train excellent engineers, 
excellent scientists, and invite them to join the effort 
because the staff will be the best asset to move forward more 
rapidly.
    And so for me it's very important that we have a clear 
long-term vision, okay, a real roadmap to deliver in such a way 
we built trust for the new generation to be involved in these 
works. As we discussed here, it's a few years ahead of us when 
we will be able to operate a facility, and the best is to have 
new generation to be involved in this field according to my 
views.
    Ms. Clark. Thank you.
    Dr. Prager. So in terms of your two questions on 
computation, I think we have the knowhow, we know what to do, 
we're building the codes, and we just need to be part of 
actually the presidential initiative in exascale computation. 
If fusion can partake in that, we can very directly move ahead 
in computation. That's--we're just--we're ready to go. And it's 
an area where a relatively modest investment can keep the 
United States on the leading edge in fusion computation.
    You asked specifically about plasma-facing materials. Well, 
within the last year the U.S. fusion community got together and 
did some planning in that and came up with four possible next 
steps. They include building an experiment that's specifically 
designed to shoot a plasma into a material to develop material 
science. It includes a robust program in developing liquid 
metals as a plasma-facing component. It includes ideas to build 
a new but medium-sized tokamak that's designed specifically to 
learn how to exhaust the heat in a way that the material 
survives. And it also includes full utilization of the current 
facilities that are studying this. So the community did come 
together and lay out some near-term affordable opportunities in 
that area.
    Ms. Clark. Great. Thank you.
    Do you have anything to offer, Dr. Hsu?
    Dr. Hsu. Yes, I like to say that I think to follow on Dr. 
Bigot's point about bringing young--bright young people into 
the field especially, there are things we can do. One of the 
things that I wrote about, about the excitement out some of the 
innovative concept work is that because it offers a tantalizing 
possibility of a faster development path, that that could help 
with exciting, you know, the new generation of fusion 
scientists.
    The other thing is the advanced computational abilities you 
spoke about could really help the innovative concept aspect of 
the program because not as much has been applied to innovative 
concept research with our latest and best computational 
capabilities.
    Ms. Clark. So if I understood you correctly in your 
testimony, you were talking about--I think you said that for 
the private sector a lot of these innovative technologies are 
too expensive to really have a meaningful investment. If we are 
not finding that funding in the United States, are there 
international competitors who are looking to fund this type of 
innovation?
    Mr.  HSU. I believe there is. I know that General Fusion, 
the Canadian company, has obtained funding from the Malaysian 
Government's sovereign fund. I've read that Tri Alpha Energy 
has received funding from a private equity vehicle created by 
the Russian Government. We know that China is building many if 
not most of the devices I showed in my figure 1, and I believe 
China is also pursuing magneto-inertial fusion, which is the 
focus of the Alpha ARPA-E program. So I--for some of these 
things international sources may become the main option.
    Ms. Clark. Thank you. I see I'm out of time. Thank you, Mr. 
Chairman.
    Chairman Weber. I thank the gentlelady, and Mr. Hultgren 
from Illinois is recognized for five minutes.
    Mr. Hultgren. Thank you, Chairman. Thank you all so much 
for being here. This is an important discussion for us to be 
having. Fusion energy certainly is a very important research 
area that has the potential to completely transform our energy 
sector. It also is a massive undertaking that is emblematic of 
the internationalization of major research facilities. Our 
scientific communities have to work together because we can no 
longer just go it alone and expect to get anything done.
    Dr. Bigot, I wonder if I could address my first question to 
you. First, I want to say that I really appreciate the work 
that you're doing, and from all that I've heard, the ITER 
project seems to be in a much better place than it has been in 
the past, and I think much of that is because of your 
leadership.
    One question I'd like to ask you, and I hope you can be 
candid so that we can help to make America a better partner, I 
wanted to ask what the biggest hurdles that you face or that 
others face working with the United States. What are the first 
questions you ask yourself when we say that we're going to 
deliver on a project that is five or ten or fifteen years down 
the road?
    Dr. Bigot. As you know, this project is so large that just 
one single country cannot afford it. You have to think about 
that we are building huge magnetic cages. The size of it is 20 
meters, I would say, with a precision which is millimetric. So 
if we just considering one country, whatever powerful it could 
be, it will be too long to clearly demonstrate.
    So for me it's very important again, as I stress the point, 
that the United States be committed on the long-term and could 
contribute--they contribute with their staff, as I mentioned. 
They could contribute also with many other technologies, okay.
    The project--the ITER project, as any others, okay, fusion 
project, request a lot of different technology, cryogenics, 
electro techniques, materials, and all these things. And so all 
these part could be gathered, okay, and I expect, as it was 
told by your Dr. Prager and Dr. Hsu, that there is strong 
support for all these basic research which could contribute to 
accelerate the proper delivery of the fusion technology in the 
world in the very next two decades really.
    Mr. Hultgren. Thank you. I hope that--I do see how 
important this partnership is, and I hope we can remain a 
reliable partner. That's something that we've got to struggle 
with and make sure that especially the funding side of things, 
that we are reliable there.
    Dr. Prager, I wanted to talk briefly with you. First of 
all, it's good to see you again and I look forward to seeing 
you later with the Lab Day that's going on over on the Senate 
side this afternoon. But the privilege I have of representing 
Fermilab, I see a lot of similarities between our two labs 
being single-purpose, and I'll make sure that any measure of 
success our labs use, it takes into account the differences 
between these labs, and also our broader multipurpose labs like 
Argonne and some others.
    When we do science, the science itself should always be the 
driver of the work we pursue, but it's always good for us to 
know the other side-benefits and application from our research. 
I wonder what other applications does your research have that 
can benefit the nation?
    Dr. Prager. Thank you. And I do want to thank you for your 
broad support of the whole national laboratory complex, which 
is invaluable to us.
    Mr. Hultgren. Thanks.
    Dr. Prager. The applications of fusion energy science go 
far and broad. And there are two classes of applications. One 
is to other areas of science, and the other one is applications 
to society and industry in general. In science we only have to 
know that essentially all of the visible universe is made up of 
plasma. So if you want to understand how stars are formed, how 
black holes work, why solar flares occur, if you want to 
understand the space weather and the Earth's environment, 
that's largely a problem in plasma physics. And the synergy 
between fusion science and what we call plasma astrophysics is 
enormous. So the effect on astronomy is enormous.
    In regard to your--one of your interest areas of Fermilab, 
there are plasma ideas to build new accelerators where you can 
accelerate particles much more quickly to high energy over much 
shorter distances than the present accelerator technology, and 
this is a very exciting application of plasma physics to 
particle physics, which is the focus of Fermilab.
    In industry, plasmas have a nice property. They're kind of 
people-sized and they're pretty hot and you can use them to 
interact with materials in revolutionary ways. So plasmas are 
used to make semiconductor chips and have in part fueled 
Moore's Law. Plasmas are used to make new types of 
nanostructures that are revolutionizing various types of 
industry. Plasmas are used to burn up waste. There's a new area 
of plasma medicine where plasmas interact with biological 
systems. You can use plasmas to heal wounds and plasmas can 
affect the chemical reactions in biological systems. There are 
plasma rocket thrusters that are in use today. You can--instead 
of having a chemical rocket, you can shoot a plasma out of a 
nozzle and the rocket moves forward. So you can have rockets 
that are much more fuel efficient. So there's a remarkably 
broad array of both fundamental science and industrial 
applications of plasmas.
    Mr. Hultgren. That's great. It sounds exciting and I'm 
looking forward to everything that comes out of this.
    Thank you all again. My time is expired. I yield back, 
Chairman. Thank you.
    Chairman Weber. I thank the gentleman. And, Mr. Lipinski, I 
think you're up.
    Mr. Lipinski. Thank you, Mr. Chairman. Thank you for 
holding this hearing. It's very important.
    As I'm sure everyone has talked about the--how critical it 
could be to--you know, producing energy in so many areas if we 
can figure this out.
    I visited the NIF--I visited NIF at Lawrence Livermore a 
few years ago, but I'm going to leave that to Ms. Lofgren to 
talk a little bit more about that. I'm sure she has some 
questions and comments about that. But I want to look at what 
we've been doing over the past few years looking at promising 
alternative approaches to achieving a viable fusion reactor. 
They have emerged from some small and midsize startups, as well 
as academia and our national labs.
    And Dr. Hsu, you know well ARPA-E recently established a 
three-year program to further explore the potential for some of 
these concepts, particularly on an approach called magnetized 
target fusion. But like all ARPA-E initiatives, this program is 
temporary. It does not cover the full range of emerging 
alternatives that currently receive no federal support.
    So I want to ask Dr. Hsu and Dr. Prager, does the Office of 
Science's current fusion research program have the flexibility 
to shift resources to promising new approaches if they don't 
align with the conventional tokamak research pathway? And if 
not, what can we do to provide the office with the flexibility?
    Dr. Hsu. Thank you for the question. I do not believe the 
flexibility current exists--currently exists for alternative 
concepts. At present, innovative concept development has no 
budget, nor new proposal solicitations from DOE, and I believe 
this omission should be addressed.
    Mr. Lipinski. Dr. Prager, do you have----
    Dr. Prager. I agree with Dr. Hsu. The budget--the fusion 
budget is very constrained financially, so there's been a 
decision made not to have a defined program to develop and 
consider fusion concepts that are different than what we call 
the tokamak and stellarator. And I do agree there should be a 
program and an opportunity within DOE, and these concepts, as 
Dr. Hsu said, should be subject to metrics, strict metrics 
moving forward. But I think as a--I would say as a matter of 
policy, the fusion program should be able to consider and, 
where meritorious, fund a variety of approaches to fusion.
    Mr. Lipinski. All right. Thank you. I have to run off to a 
markup, so I yield back. Thanks.
    Chairman Weber. The gentleman yields back.
    And Mr. Rohrabacher from California, you are recognized for 
5 minutes.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman.
    I'd just like to get some numbers straight here. So over 
the last ten years we have spent $900 million on this project, 
is that right?
    Dr. Bigot. Globally, globally, yes, with the seven members, 
yes. It is----
    Mr. Rohrabacher. No, 700--how much has the United States 
spent on it?
    Dr. Bigot. Okay. Right now, I do believe it's below two 
billion, but it is more to the U.S. ITER project office to 
speak about because myself, as the IO, have not the precise 
number because a different domestic agency has to provide in-
kind, and I've not precise knowledge----
    Mr. Rohrabacher. Well, how much money--we have spent how 
much money over the last ten years, the United States?
    Dr. Prager. So I think it is--I don't have the exact 
number, but it is a good fraction of one billion dollars.
    Mr. Rohrabacher. So about----
    Dr. Prager. It's been typically funded in the range of $100 
million a year----
    Mr. Rohrabacher. Okay.
    Dr. Prager. --you know, building up to where it is now----
    Mr. Rohrabacher. So----
    Dr. Prager. --so it's a fraction of one billion dollars.
    Mr. Rohrabacher. So around about $900 million is----
    Dr. Prager. In that range, yes.
    Mr. Rohrabacher. Okay. And how much have our partners spent 
on this project?
    Dr. Prager. Maybe Dr. Bigot can give the best estimate.
    Dr. Bigot. Okay. It's quite difficult to give you a precise 
answer again as I explained to you because seven member has to 
bring, okay, their in-kind contribution, okay, each member, 
China, Russia, India, and so--and so the labor cost, for 
example, is not exactly comparable, okay. So again, I have no 
consolidation of the global cost which has already been spent. 
I can say clearly what has been spent, for example, in the ITER 
organization, where we are on the order of 250, 300 million, no 
more, okay, one billion per year on the last year, so this is 
below three billion, which has been spent already.
    My expectation now, if we have some equivalency with what 
we call the European currency-because the European currency so 
far is used for measurement of the cost-altogether it will be 
spending including, commitments, on the order of twelve 
million--of twelve billion.
    Mr. Rohrabacher. No, no, how much have they already spent 
is the question.
    Dr. Bigot. Spent is no more than $7 billion according to my 
view.
    Mr. Rohrabacher. They have already spent seven billion?
    Dr. Bigot. Yes.
    Mr. Rohrabacher. Okay. So we've spent $900 million, and 
they've spent seven billion on the project already, is that 
correct?
    Dr. Bigot. Okay. I don't believe in the U.S. you have spent 
9 billion, okay----
    Mr. Rohrabacher. Nine hundred million.
    Dr. Bigot. Oh, 900, okay, yes, okay. Sorry, I miss the 
point. Yes, I agree with you.
    Mr. Rohrabacher. All right. So we've spent a grand total of 
perhaps--six billion on this project already has been spent, is 
that correct?
    Dr. Bigot. Yes, it is of this order. As I explained to you, 
we've----
    Mr. Rohrabacher. Six, seven billion dollars. All right. And 
we've spent nine billion. And we would expect to spend four-six 
billion more of our money in the next ten years, is that 
correct?
    Dr. Bigot. Okay. As you know, we have made, okay, this best 
achievable schedule. We've come with some cost estimates, and 
the cost estimates, for the first plasma from the point of view 
of the ITER, okay, the central organization is on the order of 
four billion more.
    Mr. Rohrabacher. We would be spending four billion?
    Dr. Bigot. Yes. And so----
    Mr. Rohrabacher. And how much----
    Dr. Bigot. Because----
    Mr. Rohrabacher. And how much would our--how much are our 
allies in this project expected to spend----
    Dr. Bigot. Okay.
    Mr. Rohrabacher. --more?
    Dr. Bigot. Altogether it is an increase of four billion. 
And again, I don't speak about the in-kind which is, okay, the 
responsibility of the different ITER members. So----
    Mr. Rohrabacher. Right.
    Dr. Bigot. --altogether my expectation that the cost for 
this project ready for operation will be of the order of 18 
billion of euro. I speak in euro.
    Mr. Rohrabacher. Okay. The----
    Dr. Bigot. Okay.
    Mr. Rohrabacher. How much--so of the 18 billion, we will be 
spending four to six billion, and they will be spending the 
rest, is that right?
    Dr. Bigot. Yes. Yes.
    Mr. Rohrabacher. All right. That's what I'm looking for 
there. And this--we would--it's going to be ten years before we 
actually will be determining whether or not the project has 
been successful?
    Dr. Bigot. Yes.
    Mr. Rohrabacher. All right. And so the total price of what 
we're ending up talking about is what? I'm trying to add up the 
figures here. What, twenty billion?
    Dr. Bigot. Yes, of this order, okay, I do believe you are--
this is the right order.
    Mr. Rohrabacher. Twenty billion dollars. And let me just 
note that--and what would you--you'd say the chances--after $20 
billion, the chances of success and of reaching what 
theoretically is possible, what would you say the chances are 
of actual success in achieving that?
    Dr. Bigot. According to me, the science is quite robust, 
taking advantage of all the work which has been done worldwide. 
The main challenge now is engineering and industrial----
    Mr. Rohrabacher. Well----
    Dr. Bigot. --and I do believe that, okay, more and more we 
are moving on. More and more we are confident that we will 
deliver.
    Mr. Rohrabacher. The engineering--so it's possible, 
however, the engineering couldn't--I mean, for example, I 
understand that already there's been great progress made in the 
producing the advanced materials that--the actual material 
science has grown a long way, and you've achieved the goals--a 
lot--many of the goals that are necessary in the materials 
area. But that was possible that that may not have happened. I 
mean, we actually achieved a goal we didn't know we could 
achieve----
    Dr. Bigot. Yes.
    Mr. Rohrabacher. --and we achieved it. So you're going to 
have to lay odds on----
    Dr. Bigot. Okay.
    Mr. Rohrabacher. --all the engineering and all these things 
coming together. What are your odds?
    Dr. Bigot. Okay. So the point is the following. As you 
know, the ITER project is a research project, and you're asked 
to demonstrate the, okay, capacity of materials, of good 
process, and all these things, and is why it will be a living 
project. In my expectation we have all the capacity of the 
scientists and engineers, okay, there is great chance that we 
will fulfill.
    In any case, I do believe this project could be so 
beneficial to the world that it is really worth to try and to 
demonstrate.
    Mr. Rohrabacher. Okay. Let me----
    Dr. Bigot. And again, we spoke----
    Mr. Rohrabacher. Let me mention this. There are a lot of 
wonderful things that we can do in this world.
    Dr. Bigot. I know.
    Mr. Rohrabacher. Wonderful things, and----
    Dr. Bigot. Including ITER.
    Mr. Rohrabacher. Okay. And ITER maybe one of them, but what 
we do is we judge each one based on the cost and the chances of 
success. And I'm sorry, I've been through a lot of these 
hearings, and I still think that the money that we put into 
trying to develop fusion--had we put $20 billion in this same 
effort into perfecting fission, we'd be a lot--it's a lot 
greater chance for improving mankind.
    But as we move forward, I wish you success because we want 
those dollars not to be wasted.
    Dr. Bigot. Okay. When--again, I want to point out that the 
United States now has the sharing of nine percent, okay, and 
with all the effort made by all the other partners, you have 
good chance to have 100 percent, okay, rewarding with all the 
knowledge and the, okay, knowledge we bring in.
    So, again, as you know, I have been working on energy for 
years and years. I do believe that in the world we'll be facing 
real challenge when we will see that fossil fuel we rely on 
more than 80 percent now will be depleting. We know. It is 
obvious. I don't know if it is in ten years or is a century, 
but it will be, and if we have no alternative technology in 
order to produce massively energy, okay, complementary with the 
renewable energy, we will--the world will face real difficulty.
    So again, I do believe it is worth to go as far as we can 
in order to make full demonstration. Fusion has worked for 
years in the sun and stars, as Dr. Prager says, so why very 
talented scientists and engineers will not be able to deliver? 
My trust is that they will do so, provided that they have good 
support.
    Chairman Weber. We're going to go ahead and move on.
    Mr. Rohrabacher. Thank you.
    Chairman Weber. I think the gentleman is yielding back. So 
I thank the gentleman, and we're going to move to Mr. Foster of 
Illinois.
    Mr. Foster. Well, thank you. And thank you, Mr. Chairman, 
for allowing me to sit on this committee hearing.
    I guess my first question is, assuming that ITER succeeds 
and that sometime around 2025, 2030, would succeed at 
everything including DT--the DT program, what are the--going to 
be the remaining unsolved problems A) to be able to design a 
production which--you know, something that is an energy plant, 
you know, what's on the list of things that will be unsolved 
problems?
    And secondly, what will be needed to understand what the 
levelized cost of electricity from a tokamak of those 
dimensions might be? You know, those are the two things that 
have to succeed to make fusion succeed as--succeed 
scientifically and engineering-wise, and it has to succeed 
economically. And so what will be the unsolved problems in 2025 
or 2030, assuming everything goes nominally? I'm happy to 
have--you two can split it.
    Dr. Bigot. May I start? Yes. Okay. I do believe that the 
main problem which will have--okay, there is two main problem 
from my point of view. Once--okay, the ITER will have in 
delivery, okay, full demonstration that we could have, okay, 
500 megawatt coming out of the 50 megawatt we will put in.
    It is materials, okay. When we will have continuous 
production of plasma energies, with some energy flux with 
neutrons which are as large as 20 megawatt per square meter, 
when we know, for example, when many----
    Mr. Foster. That's the power density on the diverter or 
not----
    Dr. Bigot. Yes, on the diverter.
    Mr. Foster. Right. Okay. Right.
    Dr. Bigot. Okay. So all we could manage is some material 
which could be able to sustain such a flux continuously.
    And the second, we know if we want to take full advantage 
of the investment of industry or tokamak, we've--okay, the 
superconducting coils which could last for very long because 
there is no real use with, okay, superconducting coils because 
there is no energy dissipation, as you know. And so it will be 
the remote handling. How could we change some of the piece, for 
example, okay, tiles which will be facing the plasma or we 
could make all this remote handling properly done in such a way 
that, okay, we could take the best investment and have a long 
lifetime, okay, expectation for the delivery.
    So in order to come to the point you mentioned about the 
economy: it is a big investment, but if the operational costs 
in the long lifetime of the equipment are very low, it will be 
quite economical process.
    Mr. Foster. And is that--are there actually designed 
studies where you say just, okay, imagine that you're not 
making one of ITER but you're making worldwide 100 of them? You 
know, how cheap could you imagine making all the 
superconducting coils? How cheap could you imagine making all 
the different components? You know, you can be optimistic 
there, but if you find that the levelized cost of electricity 
doesn't look--you know, doesn't look attractive, then you have 
to actually step back and maybe reallocate between more 
adventurous but potentially cheaper ones and straight ahead 
with the current plan.
    And so what's the current state of knowledge of what the 
economics might be, just assuming everything works technically 
here?
    Dr. Bigot. Okay. Right now, there are several studies. As 
we know, ITER is the first of a kind, okay, and we have a lot 
of equipment around, the technology and so on. So the people 
mentioned to me very recently that when we will be moving to a 
real industrial facility, maybe the cost will be down compared 
to the cost of the ITER facility----
    Mr. Foster. Oh, unquestionably. And if you tell me you are 
optimistic it will be a factor of the--the unit cost will drop 
by a factor of five, it's not unthinkable, but then you still 
have to do the cost of electricity calculation and see if 
you're happy with the result. And that's--I wonder if--those 
sort of studies must have been done for different versions of 
fusion machines at different levels of accuracy. What's the 
current understanding for whether the ITER design point has a 
shot? I mean, that's the question I'm trying to get at.
    Dr. Bigot. Okay. From my point of view all the studies I 
have seen so far we expect that the cost of the electricity 
which will come is--from such a facility will be around, okay, 
what we call 100 euro--I speak in euro, okay, which will be 
100, okay, dollars, okay, per megawatt, as you have now, for 
example, with some of the, okay, windmills or solar energy.
    Mr. Foster. That's----
    Dr. Bigot. So it would be comparable.
    Mr. Foster. --13 cents a kilowatt hour, right?
    Dr. Bigot. Yes.
    Mr. Foster. Yes. Stu, do you have anything?
    Dr. Prager. I agree with everything Dr. Bigot said. I think 
for challenges, let me list three. I think one in the plasma 
science we have to learn how to hold the plasma in steady-state 
persistently. ITER will teach us about that but ITER will burn 
for about 8 minutes or so, and we need to learn how to have a 
burning plasma that lasts for months on end. That is in part a 
plasma science challenge, and there's research underway to 
accomplish that, number one.
    Number two, as Bigot said, there's a whole--the whole issue 
of materials research, both the plasma-facing component and the 
structural material that has to manage the neutron bombardment, 
and that's a set of challenges, and there are ideas how to meet 
those challenges.
    And third, while ITER is operating, we are working on how 
to make the reactor concept even more attractive economically. 
So ITER will teach us all about burning plasma science and then 
maybe by the time we get that, we'll have evolved beyond simply 
duplicating ITER for a reactor. So we can take that burning 
plasma science, ideas that have been developed in parallel 
maybe have a more highly optimized reactor.
    On cost of electricity, over the years there have been--the 
best engineering studies that could be done taking the cost of 
materials, the cost of assembly and calculating, you know, 
capital cost and cost of electricity, they always come out to 
be competitive with baseload power generation of today. 
However, projecting economics 30 years into the future is 
highly theoretical.
    We have an interesting data point with ITER, and we do ask 
ourselves the question, does the cost to construct ITER, is it 
consistent with the engineering calculations of what a reactor 
will cost? ITER is not a reactor, first of a kind, and so on.
    And at PPPL we had the beginnings of a study to try to 
quantify that, try to quantify how much extra cost is in ITER 
because it's an experiment, it's the first of a kind, 
internationally managed. And so we're in the process of trying 
to get financial, if you like, data from the ITER partners so 
we can quantitatively answer your question.
    Mr. Foster. Well, thank you. And, you know, that's very 
important to our--the strategic decisions that we're going to 
have to make.
    I guess at this point I yield back.
    Chairman Weber. Thank--you know, Bill, Yogi Berra said the 
problem with predictions is you're dealing with the future.
    So the gentleman recognizes the gentleman from Georgia. 
Barry, you're up.
    Mr. Loudermilk. Thank you, Mr. Chairman.
    Dr. Bigot, you mentioned in your testimony that not only is 
ITER building a first-of-its-kind reactor but the 
organizational structure is first of kind--first of its kind. 
If you could go back and restructure the organization, would 
you do anything different, and if so, what would it be?
    Dr. Bigot. Yes, you're right. It's quite a challenge to 
have these 35 different nation with different culture, 
different, okay, ways to proceed working altogether. But I do 
believe it's a precondition for the ITER to move forward 
because, as I said, it's a large investment, okay, large 
industrial capacity. If we have not all these partners around 
the table, it will be difficult.
    If I would start from scratch with return of experience we 
have, I do believe that it would have been much better if what 
we propose in the action plan was accepted from the very 
beginning, which mean the DG--the Director General has full, 
okay, power to take any technical decision which is needed for 
the project even though the partners are making in-kind 
contribution, which is good because it allows the industry to 
develop, okay, to, okay, foster innovation in many fields.
    I do believe the key point is the decision-making process. 
In the beginning it was not clear enough that it is an 
industrial project, and we have to empower the Director General 
with all, okay, the support and agreement of the ITER council 
members that he has capacity to decide. And I'm very pleased 
that I was able to convince the seven ITER members, when I 
elaborated and developed this action plan that they understood 
that, and they really support me during the past 12 month on 
this matter.
    Mr. Loudermilk. Okay. Dr. Prager, did you want to--I didn't 
know if you were--you had something to add.
    Dr. Prager. Well, I don't know. I mean, Bigot--Dr. Bigot is 
the expert on that. I think the international arrangement has 
been well recognized to have provided--be problematic, and I 
think Dr. Bigot is having a remarkable effect on fixing that.
    Mr. Loudermilk. Okay.
    Dr. Prager. So I think the whole fusion community is very 
delighted with the progress over the last year.
    Mr. Loudermilk. Okay. Well, Dr. Bigot, are you considering 
requesting any changes to the organizational structure going 
forward?
    Dr. Bigot. Oh, no. I do believe that we have now, okay, 
tried it to change the culture not from just the top managers--
    Mr. Loudermilk. Right.
    Dr. Bigot. --but down to all the staff in order that we 
work in what I call an integrated way. Everybody has to feel 
that they are the owner of this global project, and fully 
accountable for its progress. This is why it is so important to 
have a schedul and to stick to the schedule-with many clear 
milestone in such a way that everybody feels fully committed to 
deliver.
    Mr. Loudermilk. Okay. Well, thank you.
    Dr. Prager, fusion energy has often been described as being 
50 years away. What do we know now that we didn't know ten to 
fifteen years ago that will give us the confidence that we are 
making some progress?
    Dr. Prager. Yes, I think the joke is 30 years away.
    Mr. Loudermilk. Okay.
    Dr. Prager. There's been a lot of progress over the last 15 
years in various ways. One, scientifically, a big challenge is 
how do you control 100 million degree plasma, keep the heat in 
effectively, keep it from what we say going unstable and kind 
of blowing out like a tire blowing out. And in the last 15 
years we've controlled it in ways that I couldn't imagine when 
I started to work in this field.
    There's aspects of the plasma that, when I started to work, 
we just had to accept that it existed like bad weather, 
particularly turbulence in the plasma. Now, we, through--partly 
through experiment and through competition and theory we have 
ways that we can actually control the turbulence in the plasma. 
And therefore, this gives us greater confidence that ITER will 
succeed and that we can design a successful fusion reactor.
    You've heard a lot about the problem of surrounding 100 
million degree plasma by a hot material. Well, in experiments 
over the last 15 years there's been ways to magnetically 
channel the heat out and spread it out over surfaces to 
alleviate that problem. Computation has been spoken about a 
lot, that we have much better predictive capabilities.
    Looking a little bit into the future, there are new 
breakthroughs in technology outside of fusion that could have a 
big impact such as magnets they can make very strong magnetic 
fields. So there's been very good steady progress that's not 
solved anything by any means but bolstered our confidence that 
will move well in the future.
    Mr. Loudermilk. Well, thank you. I'm out of time so, Mr. 
Chair, I yield back.
    Chairman Weber. I thank the gentleman.
    And the gentlelady from California is recognized.
    Ms. Lofgren. Well, thank you very much. This is really 
important hearing, I think, and I'm hoping it's not the last 
hearing that we have on this subject.
    You know, I remember when I first started working on fusion 
issues that people who were looking at magnetic versus IFE, it 
was like a religion. And I think we've actually moved past that 
now where people are seeing it's a--you know, we need to have a 
broad examination of the entire field, and I'm certainly in 
that spot. So I hope that my questions about the NIF will not 
be misconstrued as being only on the IFE pursuit.
    But, as you know, Dr. Hsu, we've talked before about the 
National Ignition Facility, which obviously is a critical 
facility for this national Stockpile Stewardship Program, but 
it's also an important element of our science community. The 
National Academy report in 2013 outlined some efforts that 
might accelerate progress, including additional investments, 
better coordination--you've read the report. I won't recite 
everything.
    I'm not--I keep mentioning this, and when the Department of 
Energy folks come, they cite things that the report didn't say, 
and I'm working with Dr. Moniz to have clarity on that.
    But given the recommendations that they made, the National 
Academy made in terms of pursuing expanding NIF to include the 
direct drive and alternative modes of ignition, crafting and 
coordinating the joint plan for IFE research, Scientific 
Advisory Committee, and the like, can you comment whether that 
would actually improve the situation at--with IFE at the NIF in 
particular? Would it enhance the billions of dollars investment 
we've already made?
    Dr. Hsu. Yes. I agree with those findings and the original 
rationale for standing up the HEDLP program. NIF is indeed 
meant--its primary mission is indeed stockpile stewardship, but 
as you say, it's an impressive and world-class facility that 
we've invested in. I believe there are opportunities on it. The 
three lab directors--Los Alamos, Livermore, Sandia--have stated 
that fusion is a critical need for stockpile stewardship and 
that the United States must be the first to achieve laboratory 
fusion.
    I believe that over its lifetime NIF should explore, if the 
physics warrant, all the laser-based approaches. That includes 
direct laser drive, indirect x-ray drive, as well as magnetized 
approaches.
    Ms. Lofgren. Right. Well, I'm just--you know, I have some 
level of frustration that obviously the stockpile stewardship 
mission was the primary mission. But the--and we have increased 
the number of shots dramatically, as I'm sure you're aware. But 
the facility itself is an underutilized resource, and that's 
not to take away from what we're doing with ITER in other 
areas. I mean, I--and when you think about what we spent on 
imported oil alone in 2013, an estimated $388 billion for that 
year on only imported oil, you know, investments in fusion 
science research to me is a bargain.
    Now, we can't--you know, I think we made a huge mistake by 
setting a deadline on which we'd get ignition. How do you ever 
do science? That is ridiculous. I don't know who thought that 
up but it wasn't me. But, you know, I'm not so worried about 
the development. If we--once we get ignition--when we opened 
the National Ignition Facility, I had the chance to speak at 
the opening, along with many others, and I remember saying, 
once we get ignition, all the rest is just engineering. And, 
you know, people laughed but I actually have a high degree of 
confidence that things will take off once we clear that 
science.
    And so really I think our effort ought to be on supporting 
the scientists to achieve that either, you know, we ought to 
ramp up at the NIF but also support the other efforts so we can 
achieve that incredibly important scientific milestone and then 
see where we go from there. And it's not just an energy source, 
but when you take a look at where we are and where we're going 
to be shortly in a shortage of water, how do you do desal 
without, you know, a limitless source of energy? I mean, we are 
going to need this as a source of energy in the near future.
    So I'm about out of time but I just--playing cleanup, I 
just want to thank the three of you for your incredibly 
important work, and I hope--you know, Dr. Foster is the only 
physicist in the House. I am so glad that he is here. I hope 
that you will look at our committee as a source of support and 
that you will be in touch with us frequently, whether in formal 
hearings or informally because I think there is bipartisan 
interest in what you are doing.
    And I yield back, Mr. Chairman.
    Chairman Weber. I thank the gentlelady.
    And I think the gentleman from Florida has some more 
questions.
    Mr. Grayson. Looking back historically, we had a working 
net-energy-producing fission reactor before we actually had the 
first fission weapon detonated a couple of years earlier 
actually. So now here we are. It's been 64 years since the 
first fusion weapon was detonated, and we still don't have a 
fusion reactor that produces net energy, nor are we apparently 
even close to it. What's the problem, gentlemen? Let's start 
with Dr. Bigot?
    Dr. Bigot. The problem is to be able to have sustainable 
production, you know, as you speak about the weapon-okay, we 
are able to deliver a huge amount of fusion energy, but to make 
it in a sustainable, fully controlled way is much more 
challenging as you could expect.
    So again, this technology is very challenging. Requiring 
many different advanced technologies in cryogenics, in 
electromagnetics, and so on. Quite recently, I visit China 
where they have been able to assess and clearly demonstrate 
that we have what we call the feeders, which are the cables 
which will provide electricity to the coils--to the 
superconducting coils. They succeed to demonstrate that we 
could have as much--as many as, okay, nearly 70,000 amperes 
flowing through that, okay. It's really challenging. We push 
the technology very, very advanced, and making all this work as 
a system is really challenging.
    I don't, okay, believe that it was a minor achievement, 
with the weapon as you mentioned, 64 years ago. But again, is 
something really different to master these technologies over 
the long-term, to have a consistent continuous production of 
energy.
    Mr. Grayson. Dr. Prager?
    Dr. Prager. Why has it taken so long? The fundamental 
answer is that this is one of the most challenging scientific 
and engineering enterprises ever undertaken by humankind, 
period. It's really hard. But the difficulty is matched by how 
transformative it will be when we succeed.
    It required the development of a new field of science, the 
field that--what we call plasma physics. So when the pioneers 
in this field started out in the late 1950s, early '60s, this 
field didn't hardly exist. In the last 50 years a new field of 
science has been produced and developed, which is an enormous 
accomplishment. This has shown up in progress in fusion. If you 
look at fusion quantitative figures of merit, it beats Moore's 
Law. By our key figure of merit, we've gone up a factor of 
30,000 in the last 30 years or so. We have another factor of 
six to go for commercial fusion.
    It's taken long because you can't prove fusion on a 
tabletop. You just can't do it. The science doesn't allow it. 
We need machines like ITER, the major facilities in the United 
States. It just takes time to build a major facility. So all 
this stretches it out, and it's all--the overarching message 
also is that it's all been underfunded over the years so we 
could have gone faster.
    So for an array of very understandable reasons, it's taken 
a long time. But if you look at how far we've come, I think it 
gives good basis for why the fusion community and scientists 
that look at this problem are very confident that we will get 
there.
    Mr. Grayson. Dr. Hsu?
    Dr. Hsu. Yes, I think drawing on your weapons analogy, I 
mean, we--like Dr. Prager said, we have come a very long way. 
We're almost to the point of detonating that first weapon. And 
I myself am interested in further work of miniaturizing it. 
That's the analogy. But we've--I think the main point is that 
it's a hard problem. We've come a long way. We're almost there 
to demonstrating it and to put the extra plug in that there are 
other ways we should be looking at that have the potential of 
not needing such a huge facility, but we need to do that work 
to know the answer.
    Mr. Grayson. Let's say if the President of the United 
States announced that by the year 2025 he wanted to have fusion 
facilities all around the country as reactors providing net 
energy, in other words, a sort of Manhattan Project for fusion. 
What would that project actually look like, Dr. Prager?
    Dr. Prager. You would parallelize. You would take more risk 
and you would look--you would develop--you would solve problems 
in parallel. Right now, we're doing it all serially, which 
stretches everything out. We would begin a study to build--my 
opinion--for example--it's going to be hypothetical. We would 
design a facility which would be a pilot plant and demonstrate 
net electricity production.
    There would be some risk associated with it. It would be a 
risk that it might not work or will work partially, but if you 
really want a Manhattan Project, that could be the centerpiece 
of the program. At the same time, you would have satellite 
facilities that would solve the materials problems. We know 
what facilities we need to build, and you would have a program 
to develop more attractive fusion concepts. You would 
parallelize and do many things in parallel if you wanted to 
have a Manhattan Project.
    Chairman Weber. Let me--Dr. Prager, let me break in here. 
You said satellites----
    Dr. Prager. Yes.
    Chairman Weber. --to solve the material problems.
    Dr. Prager. Yes.
    Chairman Weber. Could that be done in existing labs?
    Dr. Prager. No. So, for example, just to give one example, 
in order to really study, as we would like to, how materials 
behave when bombarded by neutrons that the fusion reactions 
produce, you need a facility that can generate the neutrons. We 
know what that facility is. We can design it and we can build 
it. In round numbers it will cost $1 billion. So we can do that 
in parallel with this pilot plant, as one example.
    Chairman Weber. I yield back.
    Mr. Grayson. Let's just continue. Who would like to go 
next? What would that project--that Manhattan Project or a 
pilot project, what would it look like?
    Dr. Bigot. Okay. I do believe it is what was said, very 
highly coordinated project with all the piece in order to move 
forward. And again, if the President of the United States and 
the other ITER members decide to have, okay, first fusion 
producing by 2025, 2028, according to the best of all knowledge 
now we have after five--after ten years of the ITER project, I 
do believe it's feasible if we have a highly coordinated way.
    And I agree: now we know what we have to do and we could 
accelerate. But again, I don't want to oversell. Okay. It takes 
time if we want to do it, okay, right, safely, okay. When you 
have so many piece to assemble, okay, and it is very 
requiring--again, I stress the point that you have to move 
large piece, which are the same size as the one you are moving 
in the shipyard and to put them with millimetric precision-you 
can not rush so rapidly.
    So again, do it straight in order to have this 
demonstration facility but in parallel to have some more which 
could consolidate the reliability of the installation in the 
facilities.
    Mr. Grayson. Dr. Hsu?
    Dr. Hsu. I agree with all that. I want to add a couple 
things, though. One is I think for a true fusion crash program 
you'd want to consider what the integrated reactor is going to 
look like at the end. I mean, to build the capabilities and the 
scientific understandings, you can study those things on 
separate facilities, as was mentioned, but ultimately, a fusion 
power plant has to tie everything together, and you would want 
to consider that earlier in the process. So the integration is 
important.
    And secondly, you want to consider the criteria for a 
practical power plant. Just because you can build it doesn't 
mean that everyone is going to use it. It has to be practical 
and usable and competitive. So thank you very much.
    Mr. Grayson. I yield back.
    Chairman Weber. Mr. Foster, I think you had some more?
    Mr. Foster. Yes. I'd like to talk a little bit about the 
physics risk of different machines. I mean, we've just--in the 
case of NIF, you know, we saw a tremendous technical success, I 
mean, in terms of delivering the laser power to the objected 
succeeded--you know, I'm blown away by the--by, you know, the 
success of that from a technical point of view but unexpected--
and despite having the access to the best supercomputers, the 
best codes, there was new physics uncovered because it was a 
big extrapolation from tested measured regimes of material.
    And in the case of NIF they were very fortunate that 
there's a very good secondary mission to the National Ignition 
Facility, to the stockpile stewardship, all of the high energy 
density physics that is to be done there. And so it's a 
tremendous and ongoing successful facility.
    In the case of ITER, you're building it to make fusion 
power. If there are unexpected physics of plasmas that are 
discovered that make the machine not work, that is a very 
different class of problem.
    So my question was is our current state of understanding of 
the physics simulation of plasmas and the measurements made 
such that ITER is really going to be operated in an understood 
regime right now? Or are we extrapolating in ways that may have 
some physics danger in not achieving the goals?
    Stew, do you want to give that a shot?
    Dr. Prager. ITER is an experiment, and if we knew with 99 
percent confidence that it would work as we hope, we wouldn't 
bother to build it; we would just move to the next step. So 
ITER is to teach us how to control burning plasmas.
    What's the level of confidence that we will in fact succeed 
in getting a burning plasma 10 times more energy out than in 
and be able to control it? I think the confidence is high but 
it's not 99 percent or we wouldn't be doing the experiment.
    So if you look at--you can step through the different 
physics issues. You know, will we be able to confine the 
energy? Well, that, we think so. There you can extrapolate 
pretty well from current experiments. Will the alpha particles 
that are generated in the fusion reaction cause instabilities 
that wreck the plasma? Well, we have good computation and we 
have simulated experiments in current facilities that lead us 
to think that it'll probably be okay. And on and on. But the 
challenge of a burning plasma is all these phenomenon interact 
at one time. It's a highly complex, coupled system, and when 
you start to burn, it changes.
    So I think the summary statement is the fusion community 
has pretty good confidence that this will succeed for fusion 
power, but it is an experiment. That's why--if we--it's--every 
experiment is some reasonable extrapolation from the precursor.
    Mr. Foster. Okay. Yes. But when there were difficulties 
encountered in the ignition campaign at NIF, there is no 
shortage of theorists to come out of the woodwork and say----
    Dr. Prager. Yes.
    Mr. Foster. --well, we told you in the initial design 
studies you needed 10 megajoules on target to make this----
    Dr. Prager. Yes.
    Mr. Foster. --certain to work, and we told you so. Are 
there a similar group of people standing in the background 
saying, look, there's a good chance that ITER is going to run 
into physics problems or really is there a much better 
consensus? Is that----
    Dr. Prager. Both. I think there is a consensus that we well 
likely have the physics knowhow to succeed in ITER. At the same 
time, physicists are by nature--we're supposed to be skeptics 
so we are--every day we're pointing out problems that, you 
know, can kill ITER but won't really kill ITER. So they both go 
on all the time.
    I think the extrapolation from inertial fusion facilities 
before NIF to NIF is greater than the extrapolation from 
existing fusion facilities to ITER. And so I think we have a 
pretty good shot that if we permit Dr. Bigot to complete the 
experiment that it will ultimately be successful.
    Mr. Foster. Okay. And can the same be said when you're 
looking at stellarator designs, other magnetic geometries and 
so on, or are there a different class of uncertainties there?
    Dr. Prager. Similar kinds of uncertainties, and when we 
speak about next-step stellarators, we're not at the present 
time thinking of a burning plasma but we're testing somewhat 
different magnetic configuration that's been tested before. So 
it's always an extrapolation, and whenever we build the new 
experiments, it's always a judgment call of how far you go, as 
you are saying, how far you extrapolate so that you'll do 
something exciting without going over the cliff.
    And so I would say in the last 25 years or so in the United 
States in magnetic fusion we've erred on the side of being too 
conservative.
    Mr. Foster. And will a lot of the uncertainties be resolved 
with the data from the German machine in terms of stellarator 
or are there--or is that really not a ``modern design'' so you 
won't have that data?
    Dr. Prager. It's a very--yes, so Germany has just this last 
few months started a new experiment. It's a fantastic, 
modernized, optimized stellarator design. It will be enormously 
informative. But in addition, the stellarator design has 
enormous design space. So, for example, the German one, as 
fantastic----
    Chairman Weber. Dr. Prager, let me break in real quick.
    Dr. Prager. Yes.
    Chairman Weber. Didn't you say Germany and China was a----
    Dr. Prager. Germany and Japan.
    Chairman Weber. Japan, thank you.
    Dr. Prager. So Japan has--there are two sort of billion-
dollar-class facilities. The one in Japan has been operating 
for quite a while with extremely valuable information. The 
German one is an extremely highly optimized, modern facility, 
and it's fantastic. Well, one small but--though it extrapolates 
to a very large size reactor, probably bigger than ITER.
    So, for example, there are ideas that we have in the United 
States to take all the advantages of the stellarator at have it 
be more compact, and that's what we'd like--one example of what 
we might want to do in the United States.
    Mr. Foster. All right. Let's see. If I could have just a 
couple more minutes here?
    Chairman Weber. Yes, sir, you bet.
    Mr. Foster. And I'd like to sort of return to the painful, 
you know, project parts of the question here. You know, the 
United States, you know, a few years back signed up for nine 
percent of what was then--please correct me if I'm wrong--you 
know, roughly a $12 billion U.S. project. Is that roughly the 
understanding what the initial time that we signed up for ITER? 
And now it is--we are now carrying nine percent of something 
that is several times larger.
    You know, that has caused a lot of pain in the Department 
of Energy Office of Science budget, and so that's one of the 
reasons why, you know, we're--you know, we're seeing, you know, 
what the Senate has done in the last few--has proposed in the 
last few cycles.
    And so I was wondering, you know, what--you know, what--
let's say that the Senate wins, you know, every--for the last 
few budget cycles the House has been restoring money that the 
Senate cut, you know, for ITER. And so I imagine in those 
circumstances you must have at least been starting to do 
contingency planning to find--to understand if that is a fatal 
blow for the ITER project if this time through the Senate wins. 
Is that--what can you say about that? Is that unquestionably a 
fatal blow or do you think that if you lose nine percent of the 
funding to the project it will still--you know, that you'll 
still find ways to work around it?
    Dr. Bigot. Okay. Again I will stress the point. For sure 
money is important, but industrial and scientific capacity for 
me are even more important. And if the United States, okay, 
which are now the most powerful, as I said, in science and, 
okay, industry, will pull out from the ITER, it will be a real 
drawback for the project. It's not so easy to recover from 
expertise which has been developed in this country in the 
condition which was explained, okay, just in a few minutes.
    So for me, again, I will really stress out that it is very 
important that all the ITER members and even, as it was said, 
some new one come in in such a way we get the best of the 
knowledge because we need absolutely frontiers, okay, expertise 
in many, many fields, and it was not easy to afford.
    I just want to point a fact. When we start with the ITER, 
okay, the superconducting material, the superconducting 
material we need, it was 15 tons produced per year worldwide. 
In many different, okay, facility, we have no standard quality. 
We need this specific material 650 tons in order to be able to 
make, okay, ITER working. And so we have been coordinating the 
work, and if, okay, some partners was missing, we will fail. It 
takes six years to develop all this because now we have a 115-
tons-per-year capacity. So, again, this project is so large due 
to the physics.
    According to my point of view, you could not expect to 
deliver, okay, massive fusion, okay, power if you have not the 
proper size to do that. I could explain to you in more detail, 
you know----
    Mr. Foster. I'm--I guess I am--I don't want to over-claim, 
but I think I'm probably the only Member of Congress that's 
designed and built a 100,000-ampere superconducting power 
transmission line, so I understand----
    Dr. Bigot. So you know that. You know that.
    Mr. Grayson. I haven't.
    Mr. Foster. I understand--oh, I'm sorry, Ranking Member 
Grayson. My apologies. The--but this is--you know, I have 
massive respect for what you've accomplished on this 
superconductor front, you know, to get industrially produced 
superconductor on the scale needed.
    On the other hand, when the United States signed up for the 
project, you know, the representation was made that this 
project was ready to go to an extent that in retrospect 
probably wasn't the case. And so this is, you know, one of the 
things that we have to understand is, you know, given this 
history of cost growth is this really it? Do we have a schedule 
and a budget that we can really plan around and understand? And 
that's--you know, that's one of the tough questions that we 
have to struggle with here.
    Dr. Bigot. Okay. I want to make you fully aware that when I 
come in with my own, okay, professional experience, when I 
dedicate myself to something, I want to deliver. It's why I 
have been working very, very straight in order to have a best 
evaluation of the cost of the schedule we propose, and I'm very 
pleased to say that as an independent review panel with 14 best 
world expert has been going through all our schedule and, okay, 
cost estimate and I show on my slide they say it is complete, 
it is available, and we believe to do that.
    And now I want all the, okay, IO staff, domestic agency, 
ITER organization staff, domestic agency staff, and suppliers 
to feel fully committed to deliver within budget and within, 
okay, schedule.
    Mr. Foster. You know, your predecessors also, I'm sure, 
were equally committed to understanding the project cost, I 
would hope. Anyway, I don't want to get too much into history, 
but, you know, we have to be conscious of things.
    And another possible risk is that the United States will 
fulfill its bargains, and another country that you crucially 
depend on will decide it does not have the resources to commit. 
And how do we--how should we evaluate that risk as well?
    Chairman Weber. Does the gentleman intend to wrap up here 
in about a minute or so?
    Mr. Foster. That's fine. I'm happy if that's my last 
question. If I can get that answer, though, in.
    Dr. Bigot. So clearly, there is a large interest of fusion 
in the world. I expect that the United States will stay in. If 
not, for me the project is so important that we will have to go 
on and on, okay. But again, I am not really envisaging such 
hypothesis because I do believe if we are clear enough in what 
are the benefit for the United States to stay in, they will 
feel that it is worth to move on.
    Mr. Foster. All right. And I really thank you. And I want 
to be sure I don't be seen as coming off not supportive of this 
project. I just want to understand the dimensions of the cliff 
that we're playing near when we talk about the United States 
pulling out.
    Thank you. I yield back.
    Chairman Weber. I thank the gentleman.
    I thank the witnesses for their valuable testimony and the 
members for their questions. The record will remain open for 
two weeks for additional comments and written questions from 
the Members. The hearing is adjourned.
    [Whereupon, at 12:02 p.m., the Subcommittee was adjourned.]

                               Appendix I

                              ----------                              


                   Additional Material for the Record



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre></body></html>
